No. ______

In the

Supreme Court of the United States
________________
FOUNDATION FOR INDIVIDUAL RIGHTS IN EDUCATION,
ET AL.,
Petitioners,
v.
VICTIM RIGHTS LAW CENTER, ET AL.,

________________

Respondents.

On Petition for a Writ of Certiorari to the United States
Court of Appeals for the First Circuit

________________

PETITION FOR A WRIT OF CERTIORARI
________________
William S. Consovoy
Cameron T. Norris
Tiffany H. Bates
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com

July 19, 2021

Charles J. Cooper
Counsel of Record
Brian W. Barnes
John W. Tienken
William V. Bergstrom
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
ccooper@cooperkirk.com
Counsel for Petitioners

i
QUESTION PRESENTED
Under Federal Rule of Civil Procedure 24(a)(2), an
entity that seeks to intervene as of right must
establish that none of the existing parties “adequately
represent” its interests. In cases in which someone
seeks to intervene on the side of a governmental
entity, the First Circuit and several other courts of
appeals apply a presumption that the government will
adequately represent the proposed intervenor. The
presumption can only be overcome by “a strong
affirmative showing” that the government “is not
fairly representing the applicants’ interests.” Pet.
App. 8a. In contrast, four Circuits do not apply a
presumption in such cases. See, e.g., Crossroads
Grassroots Pol’y Strategies v. FEC, 788 F.3d 312, 321
(D.C. Cir. 2015). Relying heavily on the presumption
in the proceedings below, the First Circuit ruled that
Petitioners could not intervene as of right to advance
constitutional arguments in support of an important
Department of Education rule on Title IX that none of
the existing parties are willing to make.
The question presented is whether a movant who
seeks to intervene as of right on the same side as a
governmental litigant must overcome a presumption
of adequate representation.

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioners are three nonprofit organizations—the
Foundation for Individual Rights in Education (FIRE),
the Independent Women’s Law Center, and Speech
First, Inc.—which moved to intervene as intervenor
defendants in the District Court and were movantsappellants in the Court of Appeals. Petitioners have
no parent corporation, and no publicly held company
owns 10 percent or more of their stock.
Respondents the Victim Rights Law Center, Equal
Rights Advocates, Legal Voice, Chicago Alliance
Against Sexual Exploitation, Jane Doe, an individual
by and through her mother and next friend Melissa
White, Anne Doe, Sobia Doe, Susan Doe, Jill Doe,
Nancy Doe, and Lisa Doe were the plaintiffs in the
District Court and plaintiffs-appellees in the Court of
Appeals.
Respondents Miguel Angel Cardona, in his official
capacity as Secretary of Education, Suzanne
Goldberg, in her official capacity as Acting Assistant
Secretary for Civil Rights, and the U.S. Department of
Education are the defendants in the District Court
and were defendants-appellees in the Court of
Appeals. 1
Former Secretary of Education Betsy DeVos was a defendant
in the District Court and an appellee in the Court of Appeals.
Former Acting Secretary of Education Phil Rosenfelt and, later,
Secretary of Education Miguel Cardona, replaced her in the
Court of Appeals. Former Assistant Secretary for Civil Rights
Kenneth L. Marcus was a defendant in the District Court and an
1

iii
STATEMENT OF RELATED PROCEEDINGS
x Victim Rights Law Ctr., et al., v. Rosenfelt, et al.,
No. 20-1748 (1st Cir.) (opinion issued and judgment
entered February 18, 2021).
x Victim Rights Law Ctr., et al., v. DeVos, et al.,
No. 1:20-cv-11104 (D. Mass.) (motion to intervene
denied July 27, 2020).

appellee in the Court of Appeals. Acting Assistant Secretary for
Civil Rights Suzanne Goldberg replaced him in the Court of
Appeals.

iv
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ........................................... ii
STATEMENT OF RELATED PROCEEDINGS ........iii
TABLE OF AUTHORITIES ...................................... vii
PETITION FOR A WRIT OF CERTIORARI.............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION .......................................................... 1
FEDERAL RULES INVOLVED ................................. 1
INTRODUCTION ........................................................ 3
STATEMENT .............................................................. 5
I.

The Department of Education promulgates its
first ever Rule governing funding recipients’
obligations under Title IX to address sexual
harassment. .......................................................... 5

II. Petitioners move to intervene as defendants. ..... 9
A. Petitioners are nonprofits with direct
interests in defending the final Rule. ........... 9
B. Petitioners seek to intervene to advance a
legal defense that the Department refuses to
put forward. ................................................. 11

v
REASONS FOR GRANTING THE WRIT ................ 15
I.

The courts of appeals are split over what
showing of inadequacy a proposed intervenor
must make to intervene on the same side as a
governmental litigant. ........................................ 15
A. A Strong Presumption: The First Circuit and
several others require proposed intervenors
to overcome a “presumption of adequacy” to
intervene alongside a governmental entity.
...................................................................... 16
B. A Weak Presumption: The strength of the
presumption in the Third and Ninth Circuits
is dependent on a finding that the parties
have the same interests. ............................ 20
C. No Presumption: The D.C. Circuit and three
others allow proposed intervenors who are
otherwise interested to intervene unless it is
“clear” another party will adequately
represent their interests. ............................ 22

II. Review is needed because the First Circuit’s
decision is inconsistent with Trbovich, the plain
text of Rule 24, and the realities of government
litigation............................................................. 26
III. The circuit split over the standards governing
intervention is important and should be resolved
in this case. ......................................................... 34
CONCLUSION .......................................................... 38

vi
APPENDIX TABLE OF CONTENTS
Appendix A

Opinion in the United States Court of
Appeals for the First Circuit (February
18, 2021) ............................................. 1a

Appendix B

Judgment in the United States Court
of Appeals for the First Circuit
(February 18, 2021).......................... 16a

Appendix C

Mandate in the United States Court of
Appeals for the First Circuit
(April 12, 2021) ................................ 18a

Appendix D

Electronic Order in the District Court
for the District of Massachusetts
(July 27, 2020) .................................. 20a

vii
TABLE OF AUTHORITIES
CASES
Barnes v. Sec. Life of Denver Ins. Co.,
953 F.3d 704 (10th Cir. 2020) ............................. 35
Citizens for Balanced Use v. Mont. Wilderness Ass’n,
647 F.3d 893 (9th Cir. 2011) ........................ 21, 22
City and Cnty. of San Francisco v. United States
Citizenship and Immigr. Servs.,
992 F.3d 742 (Mem.) (9th Cir. 2021) .................. 37
Clark v. Putnam County,
168 F.3d 458 (11th Cir. 1999) ............................ 24
Conservation Law Found. of New England, Inc. v.
Mosbacher, 966 F.2d 39 (1st Cir. 1992) ............. 34
Crossroads Grassroots Pol’y Strategies v. FEC,
788 F.3d 312 (D.C. Cir. 2015) ....................... 15, 23
Daggett v. Comm’n on Governmental Ethics and
Elections Pracs., 172 F.3d 104 (1st Cir. 1999) ... 30
Davis v. County Board of Education,
526 U.S. 629 (1999) .............................................. 6
Dimond v. District of Columbia,
792 F.2d 179 (D.C. Cir. 1986) ............................. 32
Entergy Gulf States La., LLC v. EPA,
817 F.3d 198 (5th Cir. 2016) .............................. 18
Fund For Animals, Inc. v. Norton,
322 F.3d 728 (D.C. Cir. 2003) ...................... 23, 32
Grutter v. Bollinger, 188 F.3d 394 (6th Cir. 1999) ... 23
Hana v. Plumer, 380 U.S. 460 (1965) ....................... 36
In re Sierra Club, 945 F.2d 776 (4th Cir. 1991) ...... 34

viii
Kane Cnty., Utah v. United States,
928 F.3d 877 (10th Cir. 2019) ............................. 31
Kleissler v. U.S. Forest Serv.,
157 F.3d 964 (3d Cir. 1998) ................................ 20
Little Sisters of the Poor Saints Peter and Paul Home
v. Pennsylvania, 140 S. Ct. 2367 (2020) ............. 35
Mass. Food Ass’n v. Mass. Alcoholic Beverages
Control Comm’n,
197 F.3d 560 (1st Cir. 1999) ......................... 17, 22
N.C. State Conf. of NAACP v. Berger,
999 F.3d 915 (4th Cir. 2021) ................... 18, 28, 36
N.D. ex rel. Stenehjem v. United States,
787 F.3d 918 (8th Cir. 2015) ............................... 19
Nat. Res. Def. Council v. Costle,
561 F.2d 904 (D.C. Cir. 1977) ............................. 23
Nat’l Cable & Telecomms. Ass’n v. Brand X Internet
Servs., 545 U.S. 967 (2005) ........................... 31, 32
Pennsylvania v. President United States of Am.,
888 F.3d 52 (3d Cir. 2018) ...................... 20, 21, 35
Planned Parenthood of Wis., Inc. v. Kaul,
942 F.3d 793 (7th Cir. 2019) ............. 18, 19, 28, 29
Prete v. Bradbury, 438 F.3d 949 (9th Cir. 2006) ...... 21
Pub. Serv. Co. of N.H. v. Patch,
136 F.3d 197 (1st Cir. 1998) ............................... 17
Smuck v. Hobson,
408 F.2d 175 (D.C. Cir. 1969) ........... 17, 30, 31, 37
Stuart v. Huff, 706 F.3d 345 (4th Cir. 2013) ............ 18

ix
T-Mobile Ne. LLC v. Barnstable,
969 F.3d 33 (1st Cir. 2020) ................................ 25
Trbovich v. United Mine Workers of Am.,
404 U.S. 528 (1972) ........... 3, 16, 17, 26, 27, 30, 37
U.S. House of Reps. v. Price, No. 16-5202,
2017 WL 3271445 (D.C. Cir. Aug. 1, 2017) .. 24, 25
United States v. City of New York,
198 F.3d 360 (2d Cir. 1999) .......................... 17, 18
United States v. Hooker Chems. & Plastics Corp.,
749 F.2d 968 (2d Cir. 1984) ............................... 18
Utah Ass’n of Counties v. Clinton,
255 F.3d 1246 (10th Cir. 2001) ..................... 23, 24
W. Energy All. v. Zinke,
877 F.3d 1157 (10th Cir. 2017) .......................... 32
Wal-Mart Stores, Inc. v. Tex. Alcoholic Beverage
Comm’n, 834 F.3d 562 (5th Cir. 2016) ............... 31
Wolfsen Land & Cattle Co. v. Pac. Coast Fed’n of
Fishermen’s Ass’ns,
695 F.3d 1310 (Fed. Cir. 2012) .................... 18, 27
STATUTES
20 U.S.C. § 1681 .......................................................... 5
28 U.S.C. § 1391(e) .................................................... 36
RULES
FED. R. CIV. P. 24 ..................................................... 1, 2
FED. R. CIV. P. 24(a)(2) .................................... 3, 13, 29
FED R. CIV. P. 24(b)(1)(B) .......................................... 13

x
ADMINISTRATIVE MATERIALS
34 C.F.R. § 106.30(a)(2) .............................................. 6
34 C.F.R. § 106.45 ........................................................ 7
34 C.F.R. § 106.45(b)(6) ............................................... 7
Exec. Order No. 14,021,
86 Fed. Reg. 13803 (Mar. 8, 2021) ........................ 8
Regulation Identifier Number 1870-AA16,
Spring 2021 Unified Agenda, OIRA,
available at https://bit.ly/36FVi33 ........................ 8
Rule on Nondiscrimination on the Basis of Sex in
Education Programs or Activities Receiving
Federal Financial Assistance,
85 Fed. Reg. 30,026 (May 19, 2020) ....... 5, 6, 7, 12
OTHER AUTHORITIES
Douglas H. Ginsburg, Remarks Upon Receiving
the Lifetime Service Award of the Georgetown
Federalist Society Chapter,
10 GEO. L. J. & PUB. POL’Y 1 (2012) ................... 36
Bianca Quilantan, Biden vows ‘quick end’ to DeVos’
sexual misconduct rule, POLITICO (May 6, 2020),
available at https://politi.co/3r6SBkQ .............. 7, 8
Letter to Educators on Title IX’s 49th Anniversary,
DEP’T OF EDUC. (June 23, 2021),
available at https://bit.ly/3hBap4g ....................... 8
Letter to Students, Educators, and other
Stakeholders re Executive Order 14021,
DEP’T OF EDUC. (April 6, 2021),
available at https://bit.ly/3wCwq6Y ..................... 8

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully seek a writ of certiorari to
review the judgment of the United States Court of
Appeals for the First Circuit.
OPINIONS BELOW
The opinion of the Court of Appeals is reported at
988 F.3d 556 and is reproduced at Pet. App. 1a. The
District Court’s electronic order has not been
published in the Federal Supplement and is
reproduced at Pet. App. 20a.
JURISDICTION
The Court of Appeals issued its judgment on
February 18, 2021. On March 19, 2020, this Court
issued a standing order that extends the time for filing
a petition for a writ of certiorari to and including July
19, 2021. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
FEDERAL RULES INVOLVED
Rule 24 of the Federal Rules of Civil Procedure
provides:
(a) INTERVENTION OF RIGHT. On timely motion, the
court must permit anyone to intervene who:
(1) is given an unconditional right to intervene by
a federal statute; or
(2) claims an interest relating to the property or
transaction that is the subject of the action, and is so

2
situated that disposing of the action may as a practical
matter impair or impede the movant’s ability to
protect its interest, unless existing parties adequately
represent that interest.
(b) PERMISSIVE INTERVENTION.
(1) In General. On timely motion, the court may
permit anyone to intervene who:
(A) is given a conditional right to intervene by a
federal statute; or
(B) has a claim or defense that shares with the
main action a common question of law or fact.
(2) By a Government Officer or Agency. On timely
motion, the court may permit a federal or state
governmental officer or agency to intervene if a party’s
claim or defense is based on:
(A) a statute or executive order administered by
the officer or agency; or
(B) any regulation, order, requirement, or
agreement issued or made under the statute or
executive order.
(3) Delay or Prejudice. In exercising its discretion,
the court must consider whether the intervention will
unduly delay or prejudice the adjudication of the
original parties’ rights.
(c) NOTICE AND PLEADING REQUIRED. A motion to
intervene must be served on the parties as provided in
Rule 5. The motion must state the grounds for
intervention and be accompanied by a pleading that
sets out the claim or defense for which intervention is
sought.

3
INTRODUCTION
This case presents a particularly stark example of
a well-developed circuit split over a question of
significant importance. The First Circuit, along with
several others, has developed a two-tiered system for
reviewing motions to intervene as of right. Under this
system, motions to intervene on the side of a private
party generally require only a minimal showing that
the existing parties will inadequately represent the
intervenor’s position. But if the movant seeks to
intervene on the side of a governmental entity, it must
overcome a strong presumption that the government
will adequately represent its interests. The Third and
Ninth Circuits apply a similar, but weaker
presumption. The Sixth, Tenth, Eleventh and D.C.
Circuits have correctly rejected the presumption
altogether.
The presumption conflicts with Trbovich v. United
Mine Workers of Am., 404 U.S. 528 (1972), which held
that a movant who sought to intervene on the same
side as a governmental litigant had only a “minimal
burden” to establish inadequacy of representation.
The presumption likewise lacks support in the text of
Rule 24(a)(2), which employs conditional language
suggesting that, where a movant is otherwise
qualified to intervene, the question whether another
party’s representation is “adequate” should rarely tip
the scales against intervention. Finally, the
presumption obscures the frequent disconnect
between the broad public interests represented by a
government agency in litigation defending a law or
legislative rule and the narrower interests
represented by private litigants who would be

4
adversely affected by invalidating that law or rule. As
a result of the presumption, parties who otherwise
qualify to intervene are left out of cases that threaten
to impair or impede their interests—even when they
can show that the existing parties’ interests are
different than their own.
This case illustrates the particular importance of
the circuit split over the application of Rule 24(a)(2).
Petitioners are advocacy groups devoted to promoting
free speech and due process on college campuses. They
sought to intervene on the side of the Department to
defend the culmination of a years-long rulemaking
process—a key regulation mandating the most
significant changes to administrative proceedings
under Title IX in the history of that important statute.
Even though Petitioners represent comparatively
narrow interests that are inconsistent with the
broader interests of the Department, the First Circuit
presumed the Department would adequately
represent Petitioners and affirmed the denial of their
motion to intervene. As a result, Petitioners were
denied the ability to raise their proposed
constitutional defenses of the Department’s Title IX
Rule despite the fact that the Department refuses to
raise those defenses, which conflict with the
Department’s own interests in the litigation.
In contrast, in essentially identical litigation
relying on essentially identical arguments in the
United States District Court for the District of
Columbia—where the presumption does not apply—
Petitioners were allowed to permissively intervene
alongside the Department. And Petitioners have a
pending motion to intervene in another case

5
challenging the Rule in the Northern District of
California, which means that when all is said and done
they will have been subjected to all three approaches
that the courts of appeals take to adequacy of
representation.
Petitioners are hardly alone. In the courts that
apply the presumption, it often prevents similarly
interested parties from participating in litigation over
important issues and undercuts the general principle
that intervention is favored. The Court should grant
the writ in this case to provide much-needed guidance
to the lower courts on a question that affects a wide
variety of important cases.
STATEMENT
I.

The Department of Education promulgates
its first ever Rule governing funding
recipients’ obligations under Title IX to
address sexual harassment.

Title IX prohibits education programs that receive
federal financial assistance from discriminating on
the basis of sex. See 20 U.S.C. § 1681. Since nearly all
colleges and universities in the United States receive
federal funds, the interpretation and application of
Title IX by the Department has sweeping importance
for higher education.
On May 19, 2020, the Department published its
Rule on Nondiscrimination on the Basis of Sex in
Education Programs or Activities Receiving Federal
Financial Assistance (the “Rule”) to take effect on
August 14, 2020. See 85 Fed. Reg. 30,026 (May 19,
2020) (codified in various sections of 34 C.F.R. pt. 106).

6
The Rule was the culmination of a comprehensive
regulatory process during which the Department
considered over 124,000 comments, hearing from
those who had been victims of sexual assault and
sexual harassment, those who had been accused, and
thousands of others—schools, universities, educators,
social workers, nonprofit groups, and concerned
citizens. Petitioners were active participants in this
administrative process.
The final Rule uses a definition of discriminatory
“sexual harassment” that closely tracks this Court’s
definition of that term in Davis v. County Board of
Education, 526 U.S. 629 (1999). The final Rule defines
“sexual harassment” to include “[u]nwelcome conduct
determined by a reasonable person to be so severe,
pervasive, and objectively offensive that it effectively
denies a person equal access to the recipient’s
education program or activity.” 34 C.F.R.
§ 106.30(a)(2). In Davis, this Court similarly held that
“actionable” sexual harassment under Title IX must
be “so severe, pervasive, and objectively offensive that
it can be said to deprive the victims of access to the
educational opportunities or benefits provided by the
school.” 526 U.S. at 651; see also 85 Fed. Reg. at
30,036–38.
The Department’s adoption of the Davis standard
was an important change of course for the agency. In
its prior informal guidance, the Department had
embraced
a
more
expansive
definition
of
discriminatory sexual harassment, defining it as
conduct “sufficiently severe, persistent, or pervasive to
limit a student’s ability to participate in or benefit
from an education program or activity, or to create a

7
hostile or abusive educational environment.” Id. at
30,034 (quoting prior guidance). The former definition
departed from the Davis standard by disjunctively
listing the attributes of discriminatory harassment,
ignoring the “objectively offensive” criterion,
introducing the term “persistent,” and eschewing
terms like “denial” or “deprivation” in favor of more
amorphous terms like “limit.”
In another departure from the Department’s prior
informal guidance, the Rule sets out a number of
procedural protections for those accused of sexual
misconduct. See 34 C.F.R. § 106.45; 85 Fed. Reg. at
30,046–55. For instance, the Rule mandates that
schools: (1) provide timely notice to respondents in
sexual misconduct proceedings; (2) employ neutral,
unbiased adjudicators; (3) objectively consider
inculpatory and exculpatory evidence; and (4) afford
complainants and respondents equal opportunities to
gather and present evidence, to select advisors, and to
appeal. See 85 Fed. Reg. at 30,053–54. In addition,
postsecondary institutions must guarantee the
accused a live hearing with the opportunity for crossexamination. 34 C.F.R. § 106.45(b)(6); 85 Fed. Reg. at
30,054.
The Rule has been met with controversy in some
quarters. The number of comments during the
rulemaking attests to the public’s intense and varying
views on sexual misconduct proceedings in schools.
Those seeking elective office also took note. For
instance, then-candidate Joseph R. Biden quickly
proclaimed his opposition to the Rule after it was
announced. See Bianca Quilantan, Biden vows ‘quick
end’ to DeVos’ sexual misconduct rule, POLITICO (May

8
6, 2020), available at https://politi.co/3r6SBkQ. In fact,
Mr. Biden campaigned on bringing the Rule to a
“quick end.” Id.
Yet “the Department’s Title IX regulations, as
amended in 2020, remain in effect.” 2 While the
Department has thus far not announced that it will
rescind the Rule, the new Administration has taken a
number of steps signaling that it may initiate a new
rulemaking that could ultimately do so. The President
issued an Executive Order calling for a review of
existing Title IX regulations. 3 The Department also
recently represented that its “comprehensive review of
the rule” is “continuing.” 4 And although the
Department “anticipate[s] issuing a notice of proposed
rulemaking to amend the regulations,” 5 any such
effort to repeal a rule that took years to adopt would
itself be an arduous multi-year process. 6 Of course, if
Letter to Students, Educators, and other Stakeholders re
Executive Order 14021, at 3, DEP’T OF EDUC. (April 6, 2021),
available at https://bit.ly/3wCwq6Y.
2

See Exec. Order No. 14,021 at § 2(i), 86 Fed. Reg. 13803 (Mar.
8, 2021) (requesting review of “the rule entitled
‘Nondiscrimination on the Basis of Sex in Education Programs or
Activities Receiving Federal Financial Assistance,’ and any other
agency actions taken pursuant to that rule, for consistency with
governing law”) (citation omitted).
3

Joint Status Report, Doc. 150 at 2, Pennsylvania v. Cardona,
No. 1:20-cv-01468-CJN (D.D.C. July 6, 2021).
4

5

Letter to Educators on Title IX’s 49th Anniversary, at 2, DEP’T
(June 23, 2021), available at https://bit.ly/3hBap4g.

OF EDUC.

6 See Regulation Identifier Number 1870-AA16, Spring 2021
Unified Agenda, OIRA, (announcing that Department plans to
issue Notice of Proposed Rulemaking in May 2022 as part of a
“Long-Term Action[ ]”), available at https://bit.ly/36FVi33.

9
the plaintiffs’ suit is successful, no such new
rulemaking would be necessary to set aside the rule.
II. Petitioners
defendants.

move

to

intervene

as

A. Petitioners are nonprofits with direct
interests in defending the final Rule.
Petitioners are three nonprofit organizations
dedicated to promoting free expression and due
process on college and university campuses across the
United States. These organizations work on issues
directly affected by the Rule. Accordingly, all three
organizations took part in or carefully followed the
regulatory process that led to the Rule, and all three
have substantial interests in defending the Rule
against legal challenges such as the one in this case.
The Foundation for Individual Rights in
Education (“FIRE”) is a nonprofit membership
organization with approximately 50 employees and a
Student Network with members on campuses
nationwide, some of whom have been subject to Title
IX disciplinary proceedings and others of whom may
be subject to such proceedings in the future. FIRE
staff work directly with college students and faculty
subjected to disciplinary proceedings for engaging in
protected First Amendment activity, and FIRE seeks
to educate both the accused of their rights in these
proceedings and public-university administrators of
their due process obligations. These efforts also have
increasingly extended in recent years to confronting
sexual misconduct proceedings at institutions that
have adopted amorphous definitions of “sexual

10
harassment” and provided few procedural protections
for the accused. Given its interest and prominent
public voice on these issues, FIRE closely followed and
took part in the Rule’s regulatory process, submitting
a detailed comment in support of the proposed rule
that made various suggestions on how it could be
improved.
The Independent Women’s Law Center (“Center”)
is a project of the Independent Women’s Forum
(“Forum”), a nonpartisan 501(c)(3) organization
founded by women to foster education and debate
about legal, social, and economic policy issues. Both
the Center and the Forum were leading proponents of
the Rule. The Forum submitted commentary in
support of the Department’s proposed rule, and the
Center specifically opposed proposals to delay the
effective date of the Rule in light of the COVID-19
pandemic.
Speech First, Inc., is a membership association of
college students, parents, faculty, alumni, and
concerned citizens that is committed to restoring
freedom of speech on college and university campuses.
Many of its student members are subject to speech
codes and disciplinary procedures that violate the
First Amendment and Due Process Clause of the
Fourteenth Amendment. Accordingly, Speech First
has often challenged speech-chilling “harassment”
policies in court, which universities often defend by
pointing to the Department’s former (pre-Rule) Title
IX guidance. Like FIRE, Speech First has student
members who have been subject in the past (and may
be subject in the future) to Title IX disciplinary
proceedings.

11
B. Petitioners seek to intervene to advance
a legal defense that the Department
refuses to put forward.
The Rule faced court challenges almost as soon as
it was announced. In this case, plaintiffs sued in the
U.S. District Court for Massachusetts, which had
jurisdiction under 28 U.S.C. § 1331. Plaintiffs allege
that the Rule’s use of the Davis standard to define
“sexual harassment” and its additional procedural
protections for the accused are unlawful under Title
IX, the Administrative Procedure Act, and the Fifth
Amendment’s equal protection guarantee. Among
other relief, plaintiffs seek a court order that would
compel the Department to replace the Davis standard
with a more elastic definition of discriminatory sexual
harassment—any “unwelcome conduct of a sexual
nature.” Am. Complaint, Victim Rights Law Center v.
Devos, No. 1:20-cv-11104, Doc. 13 at 5 (D. Mass. July
6, 2020). Shortly after plaintiffs filed their amended
complaint, Petitioners filed a motion to intervene as
defendants. See Pet. App. 5a, 21a.
Petitioners moved to intervene to protect their
interests and to advance a legal theory that the
Department of Education will not: that many of the
Rule’s protections for college students are not just
reasonable policy decisions—they are constitutionally
required. Petitioners maintain and sought to argue as
parties below that any definition of “sexual
harassment” more expansive than the Davis standard
would
unconstitutionally
infringe
on
First
Amendment-protected speech—both directly and
through its inevitable chilling effect. Further,
Petitioners sought to argue that the Due Process

12
Clause independently requires public colleges and
universities to provide many of the same procedural
protections now mandated by the Rule.
The Department has declined to take these legal
positions. In the Rule’s Preamble, the Department
maintained that applying the Davis standard was
“consistent with the First Amendment,” not required
by it. 85 Fed. Reg. at 30,033. And the Department
maintains that the Rule’s procedural protections
“likely will meet constitutional due process
obligations” and are “inspired by principles of due
process,” but nevertheless are not required by
constitutional due process. Id. at 30,100–01.
Consistent with those statements, throughout the
litigation over the Rule, the Department has refused
to defend the Rule on constitutional grounds.
Moreover,
Petitioners’
interests
are
not
coextensive with those of the Department. Petitioners
are nonprofits that consistently advocate for narrowly
defining “sexual harassment” under Davis to
safeguard free expression and due process rights on
college and university campuses. Thus, their interests
lie in securing the greatest possible protection for
those rights. By contrast, the Department is a federal
agency subject to all manner of legal and political
forces. The Department thus must balance a host of
interests with every action it takes. For instance, the
Department noted one such balancing act in the Rule’s
preamble by saying it explicitly sought to “balance
protection from sexual harassment with protection of
freedom of speech and expression.” 85 Fed. Reg. at
30,165.

13
Accordingly, to ensure that their constitutional
defenses and interests are represented in litigation
over the Rule, Petitioners filed a motion to intervene
on July 21, 2020—a little over two weeks after
plaintiffs filed an amended complaint. See Pet. App.
5a, 21a. Petitioners sought to intervene as of right, see
FED. R. CIV. P. 24(a)(2), and, in the alternative, sought
permissive intervention, see FED R. CIV. P. 24(b)(1)(B);
Pet. App. 6a. In their motion, Petitioners also
informed the court that the U.S. District Court for the
District of Columbia had already permitted
Petitioners to intervene permissively in a parallel suit
challenging
the
Rule.
See
Minute
Order,
Pennsylvania, No. 1:20-cv-01468-CJN (July 6, 2020).
In substance, many of the D.D.C. plaintiffs’ claims are
the same as those in this case, and Petitioners made
materially identical arguments for intervention in
both cases. 7
The District Court denied Petitioners’ motion to
intervene. In doing so, the District Court did not wait
to receive arguments or even learn the positions of any
of the existing parties regarding Petitioners’ motion.
Moreover, the District Court denied the motion on
grounds that the D.D.C. plaintiffs did not even
dispute: adequacy of representation. The District
Court’s electronic minute order offered a single
sentence of explanation for the denial: “The motion to
intervene is denied as there is no adequate showing
that the government will not adequately protect the
proposed intervenors[’] rights.” Pet. App. 21a.
7 The D.D.C. case is being held in abeyance because of the
Department’s aforementioned regulatory review. See Minute
Order, Pennsylvania, No. 1:20-cv-01468-CJN (July 8, 2021).

14
Petitioners timely appealed. Pet. App. 6a. While
plaintiffs contested intervention, the Department took
no position and did not participate in the interlocutory
appeal. Pet App. 3a.
The U.S. Court of Appeals for the First Circuit
affirmed the District Court’s decision. Pet. App. 17a.
“Generally,” the First Circuit explained, “an applicant
for intervention need only make a minimal showing
that the representation afforded by existing parties
likely will prove inadequate.” Pet. App. 8a. (internal
quotation marks omitted). But the First Circuit “and
a number of others” apply a higher standard when the
applicants seek to intervene “alongside a government
entity.” Pet. App. 8a. In those instances, the
applicants’ “burden of persuasion is ratcheted
upward” because of “a rebuttable presumption that
the government will defend adequately its action.” Id.
A “successful rebuttal requires a strong affirmative
showing that the agency (or its members) is not fairly
representing the applicants’ interests.” Id. (internal
quotation marks omitted).
Applying this presumption, the First Circuit
concluded that the District Court was correct to deny
Petitioners’ motion to intervene. Pet. App. 17a. Since
the District Court’s denial of Petitioner’s motion, the
court has held a bench trial in which Petitioners could
not participate. The court, however, has not issued a
ruling on the merits of the plaintiffs’ suit.

15
REASONS FOR GRANTING THE WRIT
I.

The courts of appeals are split over what
showing
of
inadequacy
a
proposed
intervenor must make to intervene on the
same side as a governmental litigant.

An entity seeking to intervene alongside the
government in the First Circuit faces a serious
challenge. That court presumes the government will
adequately represent any would-be intervenor, who
must make a “strong affirmative showing” that the
government “is not fairly representing” its interests.
Pet. App. 8a (quotations omitted).
In the D.C. Circuit, the situation is entirely
different. The court “look[s] skeptically on government
entities serving as adequate advocates for private
parties,” and the task of showing inadequate
representation is “not onerous.” Crossroads
Grassroots Pol’y Strategies v. FEC., 788 F.3d 312, 321
(D.C. Cir. 2015) (quotations omitted).
With the exception of the Third and Ninth
Circuits—which stake out a middle ground,
purporting to apply a presumption that, in practice,
does not carry much weight—the other circuits all
follow either the First Circuit or the D.C. Circuit’s
approach. The result is that where a lawsuit is
brought is often a dispositive factor in determining
whether an interested party can intervene as of
right—indeed, that was the case here.

16
A. A Strong Presumption: The First Circuit
and several others require proposed
intervenors to overcome a “presumption
of adequacy” to intervene alongside a
governmental entity.
This Court last provided guidance on the
standards that should govern intervention as of right
under Rule 24(a)(2) in Trbovich v. United Mine
Workers of Am., 404 U.S. 528 (1972). In that case, a
union member, Trbovich, filed a complaint with the
Secretary of Labor in which he alleged that a union
election had been tainted by violations of the Labor
Management Reporting and Disclosure Act of 1959
(LMRDA). Id. at 529. When the Secretary of Labor
sued the union based on these allegations, Trbovich
sought to intervene on the same side as the Secretary.
Id. at 529–30. In the portion of its opinion that
addressed Rule 24(a)(2), the Court held that the
inadequate representation requirement of Rule
24(a)(2) “is satisfied if the applicant shows that
representation of his interest ‘may be’ inadequate; and
the burden of making that showing should be treated
as minimal.” Id. at 538 n.10. Under the LMRDA, the
Court considered that the Secretary of Labor was, in
essence, acting as a lawyer for the members of the
union including Trbovich, and yet Trbovich succeeded
in intervening because, the Court explained, the
Secretary of Labor had an additional “obligation to
protect the ‘vital public interest in assuring free and
democratic union elections that transcends the
narrower interest of the complaining union member.’ ”
Id. at 539 (quoting Wirtz v. Local 153, Glass Bottle
Blowers Ass’n, 389 U.S. 463, 475 (1968)). “Even if the

17
Secretary is performing his duties, broadly conceived,
as well as can be expected, the union member may
have a valid complaint about the performance of ‘his
lawyer.’ Such a complaint . . . should be regarded as
sufficient to warrant relief in the form of intervention
under Rule 24(a)(2).” Id.
In the years since Trbovich was decided, several
courts of appeals have added an exception to
Trbovich’s statement that the burden of showing
inadequate representation “should be minimal.”
Surprisingly, the exception applies in cases exactly
like Trbovich—where a party seeks to intervene
alongside a governmental entity.
In the First Circuit, the presumption is wellestablished. Long before it applied the presumption
dispositively against Petitioners, the First Circuit
determined that the burden of persuasion should be
“ratcheted upward” when a movant wants to intervene
alongside a governmental entity. Pub. Serv. Co. of
N.H. v. Patch, 136 F.3d 197, 207 (1st Cir. 1998).
Unless a movant makes “a showing to the contrary,”
the First Circuit is “quite ready to presume that a
government defendant will ‘adequately represent’ the
interests of all private defenders of the statute or
regulation.” Mass. Food Ass’n v. Mass. Alcoholic
Beverages Control Comm’n, 197 F.3d 560, 567 (1st Cir.
1999). In practice, that means where, as here, movants
want to make legal arguments the government does
not, they are typically relegated to amici status. Id.
Several other courts of appeals have adopted the
same strong presumption that the First Circuit
applied in the proceedings below. The Second Circuit
requires “[t]he proponent of intervention [to] make a

18
particularly strong showing of inadequacy in a case
where the government is acting as parens patriae.”
United States v. City of New York, 198 F.3d 360, 367
(2d Cir. 1999). To overcome the presumption,
intervenors must make “a strong affirmative showing
that the sovereign is not fairly representing the
interests of the applicant.” United States v. Hooker
Chems. & Plastics Corp., 749 F.2d 968, 985 (2d Cir.
1984).
In the Fourth Circuit, “[a] government defendant,
given its basic duty to represent the public interest, is
a presumptively adequate defender of duly enacted
statutes,” and “when a government official is legally
required to represent the state’s interest,” courts
“start from a presumption of adequate representation
and put the intervenor to a heightened burden to
overcome it.” N.C. State Conf. of NAACP v. Berger, 999
F.3d 915, 932–33 (4th Cir. 2021) (en banc) (cleaned
up). Carrying this heightened burden is difficult: “[A]
very strong showing of inadequacy is needed to
warrant intervention” on the side of a governmental
entity. Stuart v. Huff, 706 F.3d 345, 349 (4th Cir.
2013) (citation omitted).
The Fifth Circuit follows the same rule, although
it restricts application of the presumption to cases
“involving matters of sovereign interest.” Entergy Gulf
States La., LLC v. EPA, 817 F.3d 198, 203 n.2 (5th Cir.
2016). The same is true in the Federal Circuit. Wolfsen
Land & Cattle Co. v. Pac. Coast Fed’n of Fishermen’s
Ass’ns, 695 F.3d 1310, 1315 (Fed. Cir. 2012).
In the Seventh Circuit, a presumption of
adequacy that arises when parties have the same goal
“becomes even stronger when the representative party

19
‘is a governmental body charged by law with
protecting the interests of the proposed intervenors’;
in such a situation the representative party is
presumed to be an adequate representative ‘unless
there is a showing of gross negligence or bad faith.’ ”
Planned Parenthood of Wis., Inc. v. Kaul, 942 F.3d
793, 799 (7th Cir. 2019) (citation omitted).
The presumption is also very strong in the Eighth
Circuit. Overcoming it requires “a strong showing of
inadequate representation,” which could be
accomplished by “showing that the parens patriae has
committed misfeasance or nonfeasance in protecting
the public.” N.D. ex rel. Stenehjem v. United States,
787 F.3d 918, 922 (8th Cir. 2015) (citations omitted).
But “[a]bsent [a] clear dereliction of duty . . . the
proposed intervenor cannot rebut the presumption of
representation by merely disagreeing with the
litigation strategy or objectives of the party
representing him.” Id. (citations omitted).
The First Circuit’s decision in this case applied
this law and demonstrated a robust application of the
presumption. Because Petitioners sought “to
intervene as a defendant alongside a government
entity,” they were required to make “a strong
affirmative showing that the agency (or its members)
is not fairly representing [Petitioners’] interests.” Pet.
App. 8a (quotations omitted). That Petitioners
represented narrower interests than the Department,
that they proposed to offer constitutional arguments
in defense of the Rule that the Department refuses to
advance, and that the Department had an interest
(not shared by Petitioners) in maintaining regulatory
flexibility and minimizing future legal challenges—

20
none of these sufficed to overcome the presumption.
Pet. App. 9a–11a.
B. A Weak Presumption: The strength of
the presumption in the Third and Ninth
Circuits is dependent on a finding that
the parties have the same interests.
Although the Third Circuit purports to apply a
presumption of adequacy, in practice its analysis more
closely reflects the views of the circuits that reject the
presumption. Unlike in the First Circuit and those
that share its approach, in the Third Circuit the
strength of this presumption “varies with each case.”
Kleissler v. U.S. Forest Serv., 157 F.3d 964, 972 (3d
Cir. 1998). “[T]he presumption is particularly strong
when the governmental and private interests ‘closely
parallel’ one another, or are ‘nearly identical’ ” and
requires a “compelling showing” to overcome.
Pennsylvania v. President United States of Am., 888
F.3d 52, 60 (3d Cir. 2018) (citations omitted). But if
“an agency’s views are necessarily colored by its view
of the public welfare rather than the more parochial
views of a proposed intervenor whose interest is
personal to it, the burden is comparatively light.” Id.
at 60–61.
The important difference offered by this approach
can be readily seen in Pennsylvania v. President
United States of America, in which the Little Sisters of
the Poor sought to intervene to defend regulations
promulgated under the Affordable Care Act. 888 F.3d
at 54. In the context of determining whether it should
require a “compelling showing” of inadequacy or apply
a “comparatively light” burden, the Third Circuit first

21
determined “the degree of divergence between the
interests of the Little Sisters on the one hand and
those of the federal government on the other.” Id. at
60–61. Assessing this question without first applying
any presumption, the Third Circuit explained that,
like in Trbovich, the government was serving “two
related
interests
that
are
not
identical:
accommodating the free exercise rights of religious
objectors while protecting the broader public interest
in access to contraceptive methods and services,” and
there was “no guarantee that the government will
sufficiently attend to the Little Sisters’ specific
interests as it attempts to uphold both [regulations] in
their entirety.” Id. Thus, the Third Circuit confirmed
that “the Little Sisters carry a ‘comparatively light’
burden here and have overcome the presumption.” Id.
The Ninth Circuit has taken a similar approach to
the Third Circuit, noting that it is “unclear” whether
the government representing a given side in litigation
gives rise to an independent presumption of adequacy
or merely “strengthens” the presumption that arises
when two parties share the same “ultimate objective.”
Prete v. Bradbury, 438 F.3d 949, 957 (9th Cir. 2006).
Whether the parties share the same “ultimate
objective” is, in practice, dispositive of whether a
presumption
of
adequate
governmental
representation applies. See Citizens for Balanced Use
v. Mont. Wilderness Ass’n, 647 F.3d 893, 899–900 (9th
Cir. 2011) (“Even if we applied a presumption of
adequate representation, that presumption was
persuasively rebutted by Applicants’ presentation.”).
And applicants have different “ultimate objectives” if
they offer “fundamentally differing points of view . . .
on the litigation as a whole,” id. at 899, not, as the

22
First Circuit considers the question, only if they seek
different legal relief, Mass. Food Ass’n, 197 F.3d at
567; see also Citizens for Balanced Use, 647 F.3d at
899 (“[T]he government’s representation of the public
interest may not be ‘identical to the individual
parochial interest’ of a particular group just because
‘both entities occupy the same posture in the
litigation.’ ”) (quoting WildEarth Guardians v. U.S.
Forest Serv., 573 F.3d 992, 996 (10th Cir. 2009)). 8
C. No Presumption: The D.C. Circuit and
three others allow proposed intervenors
who are otherwise interested to
intervene unless it is “clear” another
party will adequately represent their
interests.
In even stronger contrast to the First Circuit’s
approach, four circuit courts have rejected the
presumption of adequacy entirely. The D.C. Circuit
demonstrated its permissive approach in Crossroads
Grassroots Pol’y Strategies, in which the appeals court
reversed a district court’s denial of intervention under
Rule 24(a)(2), faulting the district court for failing to
“acknowledge[ ] that we have described this last
Petitioners have a pending motion to intervene in a lawsuit
challenging the Rule in the Northern District of California. See
Motion to Intervene, Doc. 35, Women’s Student Union v. U.S.
Dep’t of Education, No. 3:21-cv-01626-EMC (N.D. Cal. May 24,
2021). In seeking to intervene in defense of the Rule in parallel
litigation across several circuits, Petitioners have thus been
subjected to all three of the different approaches the courts of
appeals take to adequacy of representation when someone seeks
to intervene on the same side as a governmental litigant.
8

23
requirement [for inadequacy of representation] as ‘not
onerous,’ or ‘low,’ and that a movant ‘ordinarily should
be allowed to intervene unless it is clear that the party
will provide adequate representation.’ ” 788 F.3d at
321 (citations omitted). Unlike the First Circuit, the
D.C. Circuit “look[s] skeptically on government
entities serving as adequate advocates for private
parties.” Id. (citing Fund For Animals, Inc. v. Norton,
322 F.3d 728, 736 (D.C. Cir. 2003), and Nat. Res. Def.
Council v. Costle, 561 F.2d 904, 912–13 (D.C. Cir.
1977)).
The Sixth Circuit has also eschewed the
presumption, faulting a district court for applying it in
Grutter v. Bollinger, 188 F.3d 394 (6th Cir. 1999), and
explaining that “this circuit has declined to endorse a
higher standard for inadequacy when a governmental
entity is involved.” Id. at 400.
In the Tenth Circuit, “the government’s
representation of the public interest generally cannot
be assumed to be identical to the individual parochial
interest of a particular member of the public.” Utah
Ass’n of Counties v. Clinton, 255 F.3d 1246, 1255–56
(10th Cir. 2001). The Tenth Circuit reached that
conclusion noting, as this Court did in Trbovich, that
“[i]n litigating on behalf of the general public, the
government is obligated to consider a broad spectrum
of views, many of which may conflict with the
particular interest of the would-be intervenor.” Id. at
1256. Lest there be any doubt, the Tenth Circuit
underscored: “This potential conflict exists even when
the government is called upon to defend against a
claim which the would-be intervenor also wishes to
contest.” Id.

24
The Eleventh Circuit also makes no distinction
between governmental and private entities in
applying Rule 24(a)(2). In Clark v. Putnam County,
168 F.3d 458 (11th Cir. 1999), the court rejected the
county’s argument that it adequately represented the
proposed intervenors because public officials
“represent the interests of all Putnam County
citizens.” The Eleventh Circuit pointed out that the
“intent to represent everyone in itself indicates that
the [county] represent[s] interests adverse to the
proposed interveners; after all, both the plaintiffs and
the proposed defendant-interveners are Putnam
County citizens.” Id. at 461.
There is no doubt that if Petitioners’ motion had
been litigated under the circuit precedent of any of
these four courts of appeals, the Department would
not have been found to adequately represent
Petitioners. Indeed, the Department’s failure to
affirmatively claim that it adequately represents
Petitioners in the proceedings below would have been
dispositive in the Tenth and D.C. Circuits. Where, as
here, see Pet. App. 3a, the government takes no
position on a would-be intervenor’s motion, the Tenth
Circuit has found “its silence on any intent to defend
the intervenors’ special interests is deafening.” Id.
(cleaned up). A similar rule applies in the D.C. Circuit,
where “equivocation about whether the Department
will continue to appeal the adverse ruling of the
district court or will otherwise protect the intervenors’
interests constitutes at least the requisite minimal
showing” of inadequacy. U.S. House of Reps. v. Price,
No. 16-5202, 2017 WL 3271445, at *2 (D.C. Cir. Aug.
1, 2017) (cleaned up).

25
*

*

*

The divide between the courts of appeals is clear.
It was also the decisive factor in the denial of
Petitioners’ intervention motion. The district court’s
summary order offered one sentence of reasoning to
support its decision: “The motion to intervene is
denied as there is no adequate showing that the
government will not adequately protect the proposed
intervenors[’] rights.” Pet. App. 21a. The First Circuit,
in reviewing that order, considered only whether
Petitioners would be adequately represented and
concluded, based on the presumption, they would be.
Pet. App. 8a.
In contrast, Petitioners also sought to intervene
on essentially identical grounds in an essentially
identical case challenging the same regulations in the
District Court for the District of Columbia—where
there is no presumption of adequacy—and
intervention
was
granted.
Minute
Order,
Pennsylvania v. Devos, No. 1:20-cv-1468 (D.D.C. July
6, 2020). Although the D.C. district court granted
Petitioners’ motion under Rule 24(b) and not Rule
24(a), that distinction is immaterial for present
purposes since the First Circuit also considers
adequacy of representation as a factor informing
permissive intervention, see T-Mobile Ne. LLC v.
Barnstable, 969 F.3d 33, 41 (1st Cir. 2020), and it
affirmed denial of Petitioners’ permissive intervention
under Rule 24(b) on the same grounds as it affirmed
denial of intervention as of right under Rule 24(a). Pet.
App. 14a. That the First Circuit applies a strong
presumption of adequacy when someone seeks to
intervene on the same side as a governmental litigant

26
and the D.C. Circuit does not is the difference between
these two cases.
II. Review is needed because the First Circuit’s
decision is inconsistent with Trbovich, the
plain text of Rule 24, and the realities of
government litigation.
Although it purported to follow Trbovich and paid
lip service to the rule that “an applicant for
intervention need only make a minimal showing that
the representation afforded by existing parties likely
will prove inadequate,” the First Circuit quickly
discarded that standard and “ratcheted upward”
Petitioners’ burden to “require ‘a strong affirmative
showing’ that the agency (or its members) is not fairly
representing the applicants’ interests.” Pet. App. 8a
(citations omitted). This was error.
A. The First Circuit’s approach cannot be squared
with Trbovich, which applied the “minimal” standard
for would-be intervenors like Petitioners, even though
the intervenor in that case was a member of the
specific union constituency on whose behalf the
Secretary of Labor had filed suit. Trbovich, 404 U.S.
at 538 & n.10. In fact, this Court went so far as to say
that “the Secretary of Labor in effect becomes the
union member’s lawyer” in actions under the LMRDA.
Id. (quoting 104 Cong. Rec. 10947 (remarks of Sen.
Kennedy)). But far from requiring “a strong
affirmative showing that the agency (or its members)
is not fairly representing the applicant’s interests,”
Pet. App. 8a (quotations omitted and emphasis added),
in Trbovich, the Court noted that Rule 24 “is satisfied
if the applicant shows that representation of his

27
interest ‘may be’ inadequate.” 404 U.S. at 538 n.10.
And rather than assuming that a private citizen would
be adequately represented despite the government’s
additional interests in “regulatory flexibility” and a
desire to “minimiz[e] future legal challenges,” Pet.
App. 10a, this Court emphasized how secondary
governmental objectives that extend beyond an
intervenor’s interests may lead to “a valid complaint
about the performance” of the government as the
citizen’s representative, “[e]ven if [it] is performing
[its] duties, broadly conceived, as well as can be
expected.” 404 U.S. at 539.
The only way to square the First Circuit’s
presumption of adequacy with Trbovich would be to
suggest it does not mean what it says, which at least
one judge in a circuit applying the presumption has
tried to do. In Wolfsen Land & Cattle Co., Judge Reyna
concurred in the denial of intervention but faulted the
majority for “rel[ying] on a belief that the burden
imposed by [the presumption of adequacy] is quite
high,” because “a high burden would be contrary to
Supreme Court precedent, as well as the general
principle that intervention is favored.” 695 F.3d at
1319. Judge Reyna argued that, despite the language
courts use, rebutting the presumption ought to be
easier than it sounds—even as he acknowledged that
the “standard adopted by the majority makes it more
difficult for parties to intervene and presents an
effective bar to intervention in many cases.” Id. at
1320.
But contrary to Judge Reyna’s effort to harmonize
the presumption with this Court’s decision in
Trbovich, the courts that apply the presumption

28
saddle movants with a heavy burden to make an
“affirmative showing” that the governmental litigant
is not adequately representing their interests. Pet.
App. 8a. In fact, some circuits have gone even further.
In the Seventh Circuit, for example, to overcome the
presumption a party must demonstrate gross
negligence or bad faith on the part of the government.
As Judge Sykes recognized, “[t]o borrow a phrase from
another context, the gross-negligence/bad-faith
standard is strict in theory and fatal in fact. No
Attorney General or other government lawyer will be
so derelict in his duty as to flunk the test.” Planned
Parenthood of Wis., Inc. v. Kaul, 942 F.3d 793, 805
(Sykes, J. concurring); see also N.C. State Conf. of
NAACP, 999 F.3d at 918 (“It follows that [movants]
have a right to intervene under Rule 24(a)(2) . . . only
if a federal court first finds that the Attorney General
is inadequately representing that same interest, in
dereliction of his statutory duties—a finding that
would be ‘extraordinary.’ ”) (quoting Planned
Parenthood of Wis., 942 F.3d at 801).
Although Judge Reyna and Judge Sykes favored
application of the presumption in some form or other,
both were broadly correct: The presumption as it is
applied, including by the First Circuit in this case, is
inconsistent with this Court’s decisions. Were
Trbovich attempting to intervene in the First Circuit
today (to say nothing of the Seventh or Fourth),
without any evidence to support “a strong affirmative
showing” that the government was already failing to
fairly represent him, there is little doubt that he too
would be denied the right to intervene.

29
B. The presumption is also inconsistent with the
text of Rule 24. In relevant part, the Rule requires:
On timely motion, the court must permit
anyone to intervene who . . . claims an interest
relating to the property or transaction that is
the subject of the action, and is so situated
that disposing of the action may as a practical
matter impair or impede the movant’s ability
to protect its interest, unless existing parties
adequately represent that interest.
FED. R. CIV. P. 24(a)(2) (emphasis added). By its terms,
the Rule “calls for a contextual, case-specific analysis
and does not imply the existence of categorical
exclusions.” Planned Parenthood of Wis., 942 F.3d at
805 (Sykes, J. concurring) (emphasis added). And yet
in practice the First Circuit’s presumption of adequacy
functions as a major obstacle for parties seeking to
intervene alongside the government.
Nothing in the Rule’s text suggests that the
“adequacy” of an existing party’s representation
should form a significant barrier to intervention. By
mandating that an interested party “must [be]
permit[ted]” to intervene “unless” its interests are
adequately represented, the Rule suggests that the
other elements required for intervention as of right
under Rule 24(a)(2) should be the primary focus of the
inquiry and that courts should only exclude proposed
intervenors on adequacy of representation grounds
when it is clear that intervention is unnecessary to
protect the proposed intervenor’s interests. In other
words, under the plain text of the Rule, the “adequate
representation” element of the test only comes into
play after a party has demonstrated that it otherwise

30
has an interest at stake and should presumptively be
allowed to intervene.
The First Circuit and the other courts that apply
a presumption of adequacy do damage to this text by
requiring movant-intervenors with an interest that
warrants intervention to make a further substantial
showing of why they should not still be kept out of the
case or why an “amicus brief would not do the job.”
Daggett v. Comm’n on Governmental Ethics and
Elections Pracs., 172 F.3d 104, 112 (1st Cir. 1999). In
fact, the First Circuit has candidly acknowledged that
its approach is out of step with the Rule’s text:
“Although the quoted language is prefaced with the
word ‘unless,’ the case law is settled that the applicant
for intervention must identify any inadequacy of
representation.” Id. at 111 (citing Trbovich, 404 U.S.
at 538 & n.10).
In contrast, the D.C. Circuit’s approach is more
faithful to the language of the Rule. As that court has
repeatedly said, “a movant ordinarily should be
allowed to intervene unless it is clear that the party
will provide adequate representation.” Crossroads
Grassroots Pol’y Strategies, 788 F.3d at 321 (emphasis
added and quotations omitted). And an expression of
skepticism that any party, whether it is a government
agency or not, will adequately represent the interests
of another is the necessary implication of a rule that
permits intervention “unless” an existing party
adequately represents the movant. See Smuck v.
Hobson, 408 F.2d 175, 181 (D.C. Cir. 1969) (“As the
conditional wording of Rule 24(a)(2) suggests in
permitting intervention ‘unless the applicant’s
interest is adequately represented by existing parties,’

31
‘the burden (is) on those opposing intervention to show
the adequacy of the existing representation.’ ”)
(citations omitted).
C. In addition to lacking a basis in this Court’s
precedent or the text of Rule 24(a)(2), the presumption
of adequacy applied by the First Circuit is
fundamentally unrealistic about the nature of
governmental representation of private or “parochial”
interests in litigation regarding matters of public
importance.
In any given challenge to its laws and regulations,
a governmental entity “must consider internal
interests, such as the efficient administration of its
own litigation resources.” Kane Cnty., Utah v. United
States, 928 F.3d 877, 895 (10th Cir. 2019). And a
governmental defendant—typically an executive
official tasked with administering the challenged law
or regulation—will rarely care about securing a
victory on the merits the way that interested citizens
sometimes do. See, e.g., Wal-Mart Stores, Inc. v. Tex.
Alcoholic Beverage Comm’n, 834 F.3d 562, 569 (5th
Cir. 2016) (“The [intervenor] intends to seek a
declaratory judgment that the regulatory scheme is
constitutionally valid; the Commission merely seeks
to defend the present suit and would accept a
procedural victory.”). In fact, where the validity of a
regulation is at issue, a governmental defendant will
often prefer not to reach the merits, or at least to limit
the scope of an eventual ruling on the merits, in order
to preserve its own flexibility going forward. See Nat’l
Cable & Telecomms. Ass’n v. Brand X Internet Servs.,
545 U.S. 967, 982 (2005) (“A court’s prior judicial
construction of a statute trumps an agency

32
construction otherwise entitled to Chevron deference
only if the prior court decision holds that its
construction follows from the unambiguous terms of
the statute and thus leaves no room for agency
discretion.”). And at least one circuit has noted that a
“change in [presidential a]dministration raises ‘the
possibility of divergence of interest’ or a ‘shift’ during
litigation” that can especially justify concerns about
the adequacy of the government’s representation of an
intervenor’s interests. See W. Energy All. v. Zinke, 877
F.3d 1157, 1169 (10th Cir. 2017) (noting that shortly
after taking office, President Trump had signed
several Executive Orders that “created the
opportunity for the [agency] to conduct a review that
could result in its abandonment of the [policy at
issue]”).
To be sure, it is a feature, not a bug, of our
democracy that a governmental litigant can be
expected to respond to a change of administration and
to consider broader public interests when deciding
how to defend or prosecute a lawsuit. A governmental
entity “is charged by law with representing the public
interest of its citizens” as well as the administrative
interests of the entity itself, while individual citizens
usually possess distinct interests that are “more
narrow and parochial.” Dimond v. District of
Columbia, 792 F.2d 179, 192–93 (D.C. Cir. 1986); see
also Fund For Animals, 322 F.3d at 737. In fact, a
governmental entity would “shirk[] its duty were it to
advance this narrower interest at the expense of its
representation of the general public interest.” Id. at
193.

33
Even though the capacity of governmental
litigants to take a broad view of litigation is a valuable
feature of our system of government, the failure of the
courts to accurately assess the government’s interests
in defending its laws and regulations is undoubtedly a
bug. The presumption applied by the First Circuit and
the others that follow its lead in this area only serves
to disguise reality and leads courts to overlook
compelling reasons to worry that the government will
not adequately represent proposed intervenors.
Every one of the problems with government
representation outlined above appears in this case.
Petitioners have an interest in securing “broad First
Amendment and due process rights on college and
university campuses” and seek a judgment on the
merits in favor of the regulations at issue, while the
Department “failed to make constitutional arguments
[Petitioners] would make” and instead argued that the
plaintiffs lack standing. Pet. App. 9a. This position is
eminently understandable from the Department’s
point of view—it is obliged to act on behalf of the entire
public and with concern for its own institutional
prerogatives and flexibility for future rulemakings.
But given its own interests, the Department cannot
adequately represent Petitioners’ interests at the
same time.
Given this backdrop, there is good reason to
anticipate that the Department’s responsibilities will
lead it to pursue a legal strategy aimed at preserving
its flexibility for future rulemakings. The Department
cannot simultaneously represent Petitioners, who not
only seek to preserve the current regulations against
invalidation, but also to secure a declaration that

34
many of the Rule’s mandates are in any event
constitutionally required. It casts no aspersions on the
Department to note that its interest in the litigation
diverges from the interests of Petitioners. That
divergence ought to have been enough to support
intervention as of right without any requirement that
Petitioners surmount a strong presumption that the
Department adequately represents the interests of
anyone who seeks to intervene on the Department’s
side of the case.
III. The circuit split over the standards
governing intervention is important and
should be resolved in this case.
In the fifty years since this Court decided
Trbovich, the courts of appeals have wrestled with
how to determine when a private litigant’s position
will be adequately represented by a governmental
entity that is an original party to the litigation.
Several circuits that were once more or less suspicious
of a governmental entity’s “representative” abilities,
see Conservation Law Found. of New England, Inc. v.
Mosbacher, 966 F.2d 39, 44 (1st Cir. 1992) (“[A]
governmental entity charged by law with representing
the public interest of its citizens might shirk its duty
were it to advance the narrower interest of a private
entity.”); In re Sierra Club, 945 F.2d 776, 780 (4th Cir.
1991), have changed course and developed a
“presumption of adequacy” that imposes an ofteninsurmountable hurdle to intervention. Multiple
opinions have been written on both sides of the split
and more than one circuit judge has suggested that, if
the presumption means what it says, it is at odds with

35
this Court’s decision in Trbovich and the plain text of
the Rule. And yet, the circuit courts remain in
confusion. As four Tenth Circuit judges recently
opined: “It may be time for the Supreme Court to
provide guidance to the lower courts on the meaning
of ‘unless existing parties adequately represent that
interest’ in FED. R. CIV. P. 24(a)(2).” Barnes v. Sec. Life
of Denver Ins. Co., 953 F.3d 704, 705 (10th Cir. 2020)
(Hartz, J., dissenting from denial of en banc
rehearing).
This issue arises frequently in cases of significant
national importance like this one, and the
presumption is often the death knell for otherwisemeritorious
motions
to
intervene.
Denied
intervention, movants are left with no recourse in
settlement discussions and no say in whether to
appeal an adverse ruling. And as the First Circuit
pointed out in ruling against Petitioners here, should
the rejected intervenor desire to press its arguments
as an amicus, the court cannot consider them if they
go beyond the issues raised by the parties. App. 14a
n.8. This can have a serious downstream effect on
caselaw as the government elects, for any number of
reasons, not to make arguments or pursue appeals of
adverse rulings that intervenors might press. Most
recently and notably, the Third Circuit’s decision
reversing the district court and approving
intervention in Pennsylvania, 888 F.3d 52, made it
possible for the Little Sisters to participate as
petitioners in Little Sisters of the Poor Saints Peter
and Paul Home v. Pennsylvania, 140 S. Ct. 2367, 2379
(2020).

36
The circuit split here is particularly troublesome
because it is open to exploitation by litigants who
might be interested in avoiding potential intervenors.
Because the D.C. Circuit rejects the presumption and
“[a] party filing a petition for review of an agency
decision usually may choose between the D.C. Circuit
and at least one other circuit,” there is a risk that
savvy litigants will select circuits that apply the
presumption to bring their challenges. See Douglas H.
Ginsburg, Remarks Upon Receiving the Lifetime
Service Award of the Georgetown Federalist Society
Chapter, 10 GEO. L. J. & PUB. POL’Y 1, 4 (2012); see
generally 28 U.S.C. § 1391(e). “[O]ther things being
equal, [a party] is likely to choose the forum it believes
offers a greater probability of reversing the agency.”
Ginsburg, supra, at 4. The split at issue in this case
thus presents a danger of forum shopping and a
“threat to the goal of uniformity of federal procedure.”
Hana v. Plumer, 380 U.S. 460, 463 (1965).
Finally, the presumption of adequacy may take on
an outsized role in a small number of very significant
cases. As Judge Wilkinson recently noted:
Every attorney general who looks in the
mirror sees a governor. Or so it is said.
Therein lies a temptation. When a challenge is
brought to an unpopular or controversial state
law, an attorney general’s defense of the law
may be less than wholehearted. If the
plaintiffs in the case are politically influential,
the temptation to pull punches becomes even
stronger.
N.C. State Conf. of NAACP, 999 F.3d at 939
(Wilkinson, J., dissenting). Requiring proposed

37
intervenors to make a heightened showing of
inadequacy in such cases not only blinks reality but
also puts courts in the regrettable position of having
to weigh the extent to which the tug of political
considerations is affecting a governmental entity’s
litigation strategy. To avoid that problem, courts
should simply ask whether a governmental
defendant’s representation “may be” inadequate,
Trbovich, 404 U.S. at 538 n.10, rather than
demanding “a strong affirmative showing” that the
governmental defendant “is not fairly representing
the applicants’ interests,” Pet. App. 8a.
Although Petitioners agree with Judge Wilkinson
that “an [Attorney General’s] professional and ethical
obligations—and certainly those of the Department of
Justice which he leads—will most often prevail over
the political itch,” id., the reality is that the
presumption of adequacy forces litigants who fear
their interests may be inadequately represented to
attempt to prove collusive behavior in order to
intervene, see City and Cnty. of San Francisco v.
United States Citizenship and Immigr. Servs., 992
F.3d 742 (Mem.) (9th Cir. 2021) (VanDyke, J.,
dissenting from the denial of intervention). The
standard should be much lower, as Trbovich makes
clear. See Smuck, 408 F.2d at 181 (“It is not necessary
to accuse the board of bad faith in deciding not to
appeal or of a lack of vigor in defending the suit below
in order to recognize that a restrictive court order may
be a not wholly unwelcome haven.”).
*

*

*

This case offers an ideal vehicle for this Court’s
review. Although the split among the circuits is stark

38
and well-developed, few cases can offer such a clear
example of the importance of the presumption:
Litigation over the Rule has proceeded in parallel
through two different courts, one that applies the
presumption and one that does not. In the jurisdiction
that applies the presumption, Petitioners were denied
the opportunity to intervene, while Petitioners were
allowed to permissively intervene in the court that
does not apply the presumption. And although
litigation over these issues is often highly factual and
involves consideration of multiple factors, the decision
below considered just one factor and left no doubt that
the presumption of adequacy was dispositive.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.
July 19, 2021

Respectfully submitted,

William S. Consovoy
Cameron T. Norris
Tiffany H. Bates
CONSOVOY MCCARTHY
PLLC
1600 Wilson Blvd.,
Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy
.com

Charles J. Cooper
Counsel of Record
Brian W. Barnes
John W. Tienken
William V. Bergstrom
COOPER & KIRK, PLLC
1523 New Hampshire
Ave., N.W.
Washington, DC 20036
(202) 220-9600
ccooper@cooperkirk.com

Counsel for Petitioners

APPENDIX

1a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 20-1748
VICTIM RIGHTS LAW CENTER; EQUAL RIGHTS
ADVOCATES; LEGAL VOICE; CHICAGO ALLIANCE
AGAINST SEXUAL EXPLOITATION; JANE DOE, an
individual by and through her mother and next friend
Melissa White; ANNE DOE; SOBIA DOE; SUSAN DOE;
JILL DOE; NANCY DOE; LISA DOE,
Plaintiffs, Appellees,
v.
PHIL ROSENFELT, in his official capacity as Acting
Secretary of Education,* SUZANNE GOLDBERG, in her
official capacity as Acting Assistant Secretary for Civil
Rights,** UNITED STATES DEPARTMENT OF EDUCATION,
Defendants, Appellees.

*

Pursuant to Fed. R. App. P. 43(c)(2), Acting Secretary of
Education Phil Rosenfelt has been substituted for former Secretary
of Education Elisabeth DeVos.
**

Pursuant to Fed. R. App. P. 43(c)(2), Acting Assistant
Secretary for Civil Rights Suzanne Goldberg has been substituted
for former Assistant Secretary for Civil Rights Kenneth Marcus.

2a

FOUNDATION FOR INDIVIDUAL RIGHTS
IN EDUCATION, INDEPENDENT WOMEN”S
LAW CENTER, SPEECH FIRST, INC.,
Putative Intervenors, Appellants.
APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
MASSACHUSETTS
[Hon. William G. Young, U.S. District Judge]
February 18, 2021
Before Lynch and Selya, Circuit Judges, and Laplante,***
District Judge.
Laplante, District Judge.
The question in this interlocutory appeal is whether
the district court abused its discretion in denying both
intervention as of right and permissive intervention to
the Foundation for Individual Rights in Education,
Independent Women’s Law Center, and Speech First,
Inc. collectively, the “movants” or “movant-intervenors”)
under Federal Rule of Civil Procedure 24(a)(2) and
(b)(1)(B).
The suit underlying the appeal involves a challenge
to the U.S. Department of Education’s recent
promulgation of a regulation that sets the standard for

***

Of the District of New Hampshire, sitting by designation.

3a

actionable sexual harassment for administrative
enforcement of Title IX of the Education Amendments
of 1972, 20 U.S.C. § 1681(a), and provides additional
procedural protections to students accused of sexual
harassment. The plaintiffs are appellees here defending
the district court’s decision. Acting Secretary Rosenfelt,
Acting Assistant Secretary Goldberg, and the
Department of Education (collectively, “the
government”) are the named defendants in the suit.
The government has taken no position on the issue of
intervention and did not participate in either the
briefing or the oral argument in this appeal.
The Foundation for Individual Rights in Education,
Independent Women’s Law Center, and Speech First,
Inc. moved to intervene for the purpose of arguing that
the First Amendment requires a standard for actionable
“sexual harassment” that is at least as narrow as the
definition provided in the new regulation and that the
Fifth Amendment’s Due Process Clause mandates the
additional procedural protections. The district court
denied the motion in a summary order, finding that the
movant-intervenors had failed to show that the
government would not adequately protect their rights.
On appeal, the movant-intervenors contend that the
district court abused its discretion by denying the
motion to intervene. We affirm.
I.

Applicable Standard of Review

A district court’s denial of a motion to intervene as
of right under Rule 24(a) is reviewed “through an
abuse-of-discretion lens.” T-Mobile Ne. LLC v. Town of
Barnstable, 969 F.3d 33, 38 (1st Cir. 2020). The same

4a

“lens” is used for reviewing the denial of a motion for
permissive intervention under Rule 24(b). Id. But “the
abuse-of-discretion standard is not a monolith: within
it, abstract legal rulings are scrutinized de novo, factual
findings are assayed for clear error, and the degree of
deference afforded to issues of law application waxes or
wanes depending on the particular circumstances.” Id.
II. Background
The regulation challenged by the plaintiffs is
entitled “Nondiscrimination on the Basis of Sex in
Education Programs or Activities Receiving Federal
Financial Assistance,” 85 Fed. Reg. 30,026 (May 19,
2020) (codified at 34 C.F.R. § 106) (the “Rule”). It sets
standards for how educational institutions that receive
federal financial assistance must handle student
allegations of sexual harassment. As relevant here, the
Rule defines the standard for “sexual harassment” to be
used in administrative enforcement of Title IX to be
generally the same as the standard set by Davis v.
Monroe County Board of Education, 526 U.S. 629, 651
(1999), for private Title IX suits. See 34 C.F.R. §
106.30(a)(2); 85 Fed. Reg. at 30,033 (explaining the
reasoning for adopting the Davis standard). The Rule
also requires that schools provide additional procedural
protections to students accused of sexual harassment.
85 Fed. Reg. at 30,046-55.
In June 2020, the plaintiffs filed this suit
challenging various portions of the Rule and its
promulgation under the Administrative Procedure Act
(“APA”) and the Fifth Amendment’s Equal Protection

5a

guarantees.1 They seek an injunction declaring the Rule
invalid and enjoining its implementation.2 The
government has opposed the relief sought by the
plaintiffs and has challenged the plaintiffs’ standing,
asserted various APA defenses as to each claim, and
argued that there was no Equal Protection violation.
The movant-intervenors disagree with the
government’s strategic and policy choice not to argue
that the First Amendment requires the use of a
standard for actionable sexual harassment that is at
least as narrow as the standard set by Davis and that
the additional procedural protections for students
accused of sexual harassment provided by the Rule are
required by the Fifth Amendment’s Due Process
Clause. The movant-intervenors thus requested
intervention for the purpose of presenting those
1

The plaintiffs’ Equal Protection claim is premised on
allegations that former Secretary of Education DeVos and other
members of the Department of Education held discriminatory and
stereotypical beliefs about women and accordingly singled out
women for excessively onerous procedures and standards in
establishing sexual harassment.
2

Similar suits about the Rule have proceeded in the
Southern District of New York, the District of Maryland, and the
District of Columbia. New York v. U.S. Dep’t of Educ., No.
1:20-cv-4260 (S.D.N.Y); Know Your IX v. DeVos, No. 1:20-cv-1224
(D. Md.); Pennsylvania v. DeVos, No. 1:20-cv-1468 (D.D.C.). The
movants asked to intervene in all three cases. The Southern
District of New York denied intervention. In the District of
Maryland, the motion to intervene was denied as moot after the
case was dismissed without prejudice for lack of standing. The
District Court for the District of Columbia granted permissive
intervention.

6a

constitutional arguments in addition to the
government’s non-constitutional defenses. In their
motion, the movants argued that they were entitled to
intervene as of right under Rule 24(a) and by the
court’s permission under Rule 24(b).
Before either the plaintiffs or the government filed
any responses or objections, the district court denied
the motion to intervene in a summary electronic order.
The order stated, in full:
The motion to intervene is denied as there is no
adequate showing that the government will not
adequately protect the proposed intervenors[’]
rights. The Court will, of course, welcome a
brief amicus curiae from the proposed
intervenors.
This interlocutory appeal followed.3 We held oral
argument on January 5, 2021.4
III.

Discussion
On timely motion, the court must permit
anyone to intervene who . . . claims an interest

3

An order denying a motion to intervene is immediately
appealable. Pub. Serv. Co. of N.H. v. Patch, 136 F.3d 197, 204 (1st
Cir. 1998).
4

Between the filing of this appeal and the issuance of this
opinion, the district court tried the case. The movant-intervenors
did not file any motion in the district court for leave to file an
amicus brief raising their legal theory. The district court granted
every motion for leave to file an amicus brief that was presented to
it, accepting nine briefs from various amici.

7a

relating to the property or transaction that is
the subject of the action, and is so situated that
disposing of the action may as a practical
matter impair or impede the movant’s ability to
protect its interest, unless existing parties
adequately represent that interest.
Fed. R. Civ. P. 24(a)(2). Failure to satisfy any single
requirement for intervention as of right under Rule
24(a) – such as showing inadequate representation by
existing parties – is sufficient grounds to deny a request
for “intervention as of right.” See id.
If the requirements of Rule 24(a)(2) are not met,
“[o]n timely motion, the court may permit anyone to
intervene who . . . has a claim or defense that shares
with the main action a common question of law or fact.”
Fed. R. Civ. P. 24(b)(1)(B). Intervention under Rule
24(b) is known as “permissive intervention.” Id.
The movant-intervenors contend that the district
court abused its discretion by denying their motion to
intervene as of right on the ground that the government
will adequately represent their interests. They also
argue that the district court abused its discretion by
failing to adequately explain its denial of permissive
intervention, preventing this court from conducting a
meaningful appellate review. The plaintiffs respond
that the district court correctly reasoned that the
government will adequately represent the
movant-intervenors’ interests and that this serves as
sufficient reason to deny both intervention as of right
and permissive intervention.

8a

A. Intervention as of Right
In denying the motion to intervene, the district
court found that the movant-intervenors failed to show
that the existing defendants, namely, the government,
would not adequately represent their claimed interests.5
Generally, “an applicant for intervention need only
make a minimal showing that the representation
afforded by existing parties likely will prove
inadequate.” Patch, 136 F.3d at 207. But, in any case,
“[a] party that seeks to intervene as of right must
produce some tangible basis to support a claim of
purported inadequacy.” Id.
Furthermore, “the burden of persuasion is
ratcheted upward” when the movant seeks to intervene
as a defendant alongside a government entity. See id. In
those circumstances, “this court and a number of others
start with a rebuttable presumption that the
government will defend adequately its action[.]” Cotter
v. Mass. Ass’n of Minority L. Enf’t Officers, 219 F.3d 31,
35 (1st Cir. 2000). A successful rebuttal “requires ‘a
strong affirmative showing’ that the agency (or its
members) is not fairly representing the applicants’
interests.” Patch, 136 F.3d at 207 (quoting United
States v. Hooker Chems. & Plastics Corp., 749 F.2d 968,
985 (2d Cir. 1984)).

5

Because we may affirm solely on the ground that the
government adequately represents whatever interests the movants
may have in the subject matter of this case, we do not express any
opinion as to whether the movants have shown that they have an
interest sufficient to warrant intervention under Rule 24(a).

9a

The movant-intervenors attempt to make that
showing by identifying their “interests and goals”
purportedly not shared by the government. They
contend that while they want to secure broad First
Amendment and due process rights on college and
university campuses, the government wants to
minimize legal challenges and maintain regulatory
flexibility. The movant-intervenors assert that these
divergent motivations have led them to pursue different
legal strategies than those pursued by the government.
Specifically, the movant-intervenors say that the
government has failed to make constitutional
arguments that they would make, and they suggest that
the government has made an argument (that the
plaintiffs lack standing) that they would not.
Consequently, the movant-intervenors contend, the
government’s representation is inadequate.
We reject the movant-intervenors’ claim. As
explained in Massachusetts Food Association v.
Massachusetts Alcoholic Beverages Control
Commission, a movant-intervenors’ interest in making
an additional constitutional argument in defense of
government action does not render the government’s
representation inadequate. 197 F.3d 560, 567 (1st Cir.
1999) (rejecting movant-intervenors’ argument that the
state’s representation was inadequate because of their
intent to make an argument under the Twenty-First
Amendment that was not pursued by the state); see
also T-Mobile Ne., 969 F.3d at 39 (“[T]he presumption
that a governmental entity defending official acts
adequately represents the interests of its citizens
applies full-bore, given the Town’s vigorous,

10a

no-holds-barred defense of its refusal to grant a
variance or other regulatory relief to T-Mobile.”); Maine
v. Dir., U.S. Fish & Wildlife Serv., 262 F.3d 13, 19-20
(1st Cir. 2001) (rejecting argument that movants were
entitled to intervention where government could make
“several obvious, more direct arguments . . . in which
the [movant and government had] a common interest”);
Daggett v. Comm’n on Governmental Ethics & Election
Practices, 172 F.3d 104, 112-13 (1st Cir. 1999). Nor is
perfect identity of motivational interests between the
movant-intervenor and the government necessary to a
finding of adequate representation. See Mass. Food
Ass’n, 197 F.3d at 567. And the government’s putative
interests in “regulatory flexibility” and minimizing
future legal challenges do not create a sufficient casespecific conflict to render the district court’s denial of
intervention an abuse of discretion.
For example, in Cotter the court held that the City
of Boston’s defense of its use of racial criteria in
promotions for law enforcement officers was sufficiently
inadequate as to the movant minority police officers
because the City’s interests and likely defenses were in
conflict with the minority officers’ interests and
proposed defense that racial criteria were appropriate
given “alleged deficiencies in its current” promotional
exams. 219 F.3d at 32-33, 35-36 (emphasis omitted).
Similarly, in Conservation Law Foundation of New
England, Inc. v. Mosbacher, the court held that a state
agency’s representation of movant fishing groups was
inadequate when the agency raised no defense to the
suit and agreed to a settlement that subjected the
movants to more stringent rules than had previously

11a

been in effect. 966 F.2d 39, 44 (1st Cir. 1992). In
contrast, here, the government has raised several
defenses to the suit that would uphold the Rule, while
the movant-intervenors would only raise extra
constitutional theories not in conflict with
government’s defenses nor requiring additional
evidentiary development.
The movants point to International Paper Co. v.
Inhabitants of the Town of Jay for the supposition that
“the adverse impact of stare decisis standing alone may
be sufficient to satisfy the [practical impairment]
requirement.” 887 F.2d 338, 344 (1st Cir. 1989)
(alteration in original) (quoting 3B J. Moore, Moore’s
Federal Practice ¶ 24.07[3], at 24-65 (2d ed. 1987)).
From this, the movants infer that the district court
abused its discretion in denying intervention because
the judgment they seek would set precedent on their
preferred constitutional theories while the judgment
sought by the government would not. International
Paper Co. does not render the district court’s decision
an abuse of discretion, as the government’s success in
defending the Rule would not foreclose the movants
from presenting their constitutional arguments in a
later and appropriate case. See id. (“[I]t was not
unreasonable for the district court to conclude that a
refusal to let Maine intervene would not impair or
impede Maine’s ability to protect its interest in the
interpretation of its environmental laws.”).
Moreover, the movants’ proposition that the
government’s avoidance of constitutional issues renders
inadequate its representation of their interest in having
those issues addressed is inconsistent with the principle

12a

of constitutional avoidance. Courts are obliged to avoid
rulings on constitutional questions when
non-constitutional grounds will suffice to resolve an
issue. Sony BMG Music Ent. v. Tenenbaum, 660 F.3d
487, 511 (1st Cir. 2011) (discussing the myriad
problems that are likely to arise if a court fails to
observe the principle of constitutional avoidance and
vacating district court’s avoidable ruling on
constitutional issue). Consistent with that principle, the
government made a strategic and policy choice to
defend the Rule’s promulgation on non-constitutional
grounds. The movants’ putative interest in having
certain constitutional issues addressed now rather than
later does not obviate the principle of constitutional
avoidance. Indeed, it would be inconsistent with the
principle of constitutional avoidance to conclude that
the district court abused its discretion in denying an
intervention sought to expedite a judgment on
constitutional questions that could have been avoided
by limiting the case to the issues as framed by the
plaintiffs and government. Accordingly, the district
court did not abuse its discretion in denying
intervention as of right. See Fed. R. Civ. P. 24(a)(2).6
B. Permissive Intervention
The movant-intervenors assert that, even if they are
not entitled to intervene as of right, the district court
should have permitted them to intervene under Rule
6

To the extent the movants contend that the district court
abused its discretion by summarily disposing of the motion for
intervention as of right, that argument is foreclosed by T-Mobile
Northeast. 969 F.3d at 38.

13a

24(b). They argue that the district court failed to
adequately explain its reasoning for denying the motion
to intervene, such that this court cannot meaningfully
review the order.7
This court’s precedents foreclose the movants’
position. The court may affirm a district court’s ruling
for any reason supported by the record. Miles v. Great
N. Ins. Co., 634 F.3d 61, 65 n.5 (1st Cir. 2011). That
holds true even in the context of review for abuse of
discretion, as this court offers deference to the district
court’s decisionmaking to the extent its “findings or
reasons can be reasonably inferred.” Cotter, 219 F.3d at
34; see also Ungar v. Arafat, 634 F.3d 46, 51 (1st Cir.
2011) (“The district court denied the motion to
intervene in a bench decision. It did not subdivide its
analysis into discrete silos. Nevertheless, its findings
and reasoning can easily be inferred from the record.”).
And, to the extent the district court’s reasons are not
stated or cannot be reasonably inferred,
“abuse-of-discretion review simply becomes less
deferential because there is nothing to which to give
deference.” See T-Mobile Ne., 969 F.3d at 38 (internal
quotation marks omitted). But even if “the district
court summarily denies a motion to intervene, the court
of appeals must review the record as a whole to
ascertain whether, on the facts at hand, the denial was

7

The movants also reiterate their belief that the district
court erred in finding that the government will adequately
represent their interests, and they contend that the district court
therefore abused its discretion if it relied on that ground to deny
permissive intervention.

14a

within the compass of the district court’s discretion.”
Id. (affirming summary order denying motion to
intervene).
T-Mobile Northeast forecloses the movants’
suggestion that the district court abused its discretion
by not adequately considering their arguments for
permissive intervention or by summarily denying the
motion. Id. Moreover, to conclude that the district court
did not abuse its discretion in denying the motion, we
need not go beyond the express reasons the district
court gave for denying intervention. Though its order
was terse, the district court’s reasoning need not be
divined: the movant-intervenors did not show that the
government would not adequately protect their
interests and the amicus procedure provides sufficient
opportunity for them to present their view.8 That
reasoning, which as discussed above supports denial of
intervention as of right, is also sufficient on this record
to sustain the district court’s discretion as to permissive
intervention. See id. at 41 (“To begin, a district court
considering requests for permissive intervention should
ordinarily give weight to whether the original parties to
the action adequately represent the interests of the
putative intervenors.”); Mass. Food Ass’n, 197 F.3d
at 568 (affirming denial of motion for permissive
8

Of course, a district court should not consider arguments
raised by amici that go beyond the issues properly raised by the
parties. E.g., Sindi v. El-Moslimany, 896 F.3d 1, 31 n.12 (1st Cir.
2018). And, as we noted, the principle of constitutional avoidance
requires courts to avoid ruling on constitutional questions if the
issues can be resolved on non-constitutional grounds. Sony BMG
Music Ent., 660 F.3d at 511.

15a

intervention when “[t]he district court reasonably
concluded that the Commonwealth was adequately
representing the interests of everyone concerned to
defend the statute and that any variations of legal
argument could adequately be presented in amicus
briefs”).
IV. Conclusion
The district court’s order denying the Foundation
for Individual Rights in Education, Independent
Women’s Law Center, and Speech First, Inc.’s motion
to intervene is AFFIRMED.

16a

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 20-1748
VICTIM RIGHTS LAW CENTER; EQUAL RIGHTS
ADVOCATES; LEGAL VOICE; CHICAGO ALLIANCE
AGAINST SEXUAL EXPLOITATION; JANE DOE, an
individual by and through her mother and next friend
Melissa White; ANNE DOE; SOBIA DOE; SUSAN DOE;
JILL DOE; NANCY DOE; LISA DOE,
Plaintiffs, Appellees,
v.
PHIL ROSENFELT, in his official capacity as Acting
Secretary of Education, SUZANNE GOLDBERG, in her
official capacity as Acting Assistant Secretary for Civil
Rights, UNITED STATES DEPARTMENT OF EDUCATION,
Defendants, Appellees.
FOUNDATION FOR INDIVIDUAL RIGHTS
IN EDUCATION, INDEPENDENT WOMEN'S
LAW CENTER, SPEECH FIRST, INC.,
Putative Intervenors, Appellants.
JUDGMENT
Entered: February 18, 2021

17a

This cause came on to be heard on appeal from the
United States District Court for the District of
Massachusetts and was argued by counsel.
Upon consideration whereof, it is now here ordered,
adjudged and decreed as follows: The district court’s
order denying the Foundation for Individual Rights in
Education, Independent Women’s Law Center, and
Speech First, Inc.’s motion to intervene is affirmed.
By the Court:
Maria R. Hamilton, Clerk

18a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 20-1748
VICTIM RIGHTS LAW CENTER; EQUAL RIGHTS
ADVOCATES; LEGAL VOICE; CHICAGO ALLIANCE
AGAINST SEXUAL EXPLOITATION; JANE DOE, an
individual by and through her mother and next friend
Melissa White; ANNE DOE; SOBIA DOE; SUSAN DOE;
JILL DOE; NANCY DOE; LISA DOE,
Plaintiffs, Appellees,
v.
MIGUEL ANGEL CARDONA, in his official capacity as
Acting Secretary of Education, SUZANNE GOLDBERG,
in her official capacity as Acting Assistant Secretary
for Civil Rights, UNITED STATES DEPARTMENT OF
EDUCATION,
Defendants, Appellees.
FOUNDATION FOR INDIVIDUAL RIGHTS
IN EDUCATION, INDEPENDENT WOMEN'S
LAW CENTER, SPEECH FIRST, INC.,
Putative Intervenors, Appellants.

19a

MANDATE
Entered: April 12, 2021
In accordance with the judgment of February 18,
2021, and pursuant to Federal Rule of Appellate
Procedure 41(a), this constitutes the formal mandate of
this Court.
By the Court:
Maria R. Hamilton, Clerk

20a

APPENDIX D
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
Civil Action No. 1:20-cv-11104-WGY
VICTIM RIGHTS LAW CENTER, et al.,
Plaintiffs,
v.
ELIZABETH D. DEVOS, in her official capacity as
Secretary of the United States Department of
Education, et al.,
Defendants.
FOUNDATION FOR INDIVIDUAL RIGHTS
IN EDUCATION, INDEPENDENT WOMEN'S

LAW CENTER, SPEECH FIRST, INC.,
[Proposed] Intervenors-Defendants.

21a

07/27/20

35

Jud ge W i l l i am G . Y o ung:
ELECTRONIC ORDER entered
denying 24 Motion to Intervene.
The motion to intervene is
denied as there is no adequate
showing that the government
will not adequately protect the
proposed intervenors rights.
The Court will, of course,
welcome a brief amicus curiae
from the proposed intervenors.
(Guadet, Jennifer) (Entered
07/27/2020)

